                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A12030017                                                                     Page 1 of 1



                 We assessed an allegation that a graduate student 1 falsified analysis and spectral data
        included within a draft copy of a manuscript. We lacked documentary evidence of the
        falsification in the manuscript, or an explicit connection to NSF-supported research. Therefore,
        we found no substance to this allegation. We assessed a related allegation that incomplete data
        was included in a manuscript submitted for publication by the PI of an NSF award.2 However,
        the emails provided indicated that the PI instructed that all data was to be included. Furthermore
        the manuscript does not acknowledge NSF research support other than for a fellowship for an
        author not related to the allegation. Accordingly, we find no substance to this allegation.

                  This case is closed with no further action taken.




NSF OIG Form 2 (JJ /02)
